OIG Audit Report GR-60-09-009

Office of Justice Programs Southwest Border Prosecution Initiative Funding Received by Santa Clara County, California
Audit Report GR-60-09-009
April 2009
Office of the Inspector General


Executive Summary


The U.S. Department of Justice, Office of the  Inspector General, Audit Division, has completed an audit of the Southwest Border Prosecution Initiative (SWBPI) funding  awarded by the Office of Justice Programs (OJP) to Santa Clara County, California. As of  December 17, 2008, Santa Clara   County had received SWBPI  funding totaling $2,207,320.
Many  drug and other criminal cases occurring along the southwest border are  initiated by a federal law enforcement agency or multi‑jurisdictional task  forces, e.g., High Intensity Drug Trafficking Areas (HIDTA) and Organized Crime  Drug Enforcement Task Forces (OCDETF). Many  U.S. Attorneys, including the U.S. Attorney for the Northern District of  California, have developed prosecution guidelines which govern the most common  violations of federal law.  These  prosecution guidelines are used by law enforcement agencies to determine  whether to file a case in federal, state, or county court. As a result, many federally initiated cases occurring near the southwest  border are referred to the state or county for prosecution.  
The SWBPI was established in Fiscal Year (FY) 2002,  when Congress began appropriating funds to reimburse state, county, parish,  tribal, and municipal governments for costs associated with the prosecution of criminal  cases declined by local U.S. Attorneys’ offices.  Reimbursements received from SWBPI funding  may be used by applicant jurisdictions for any purpose not otherwise prohibited  by federal law.  For FY 2008,  Congress appropriated $30 million for the SWBPI.
 The  objective of our audit was to determine if the SWBPI reimbursements received by  Santa Clara County were allowable, supported, and in  accordance with applicable laws, regulations, guidelines, and terms and  conditions of the SWBPI. 
We  found that Santa Clara   County claimed and was reimbursed for cases that  were ineligible under the SWBPI guidelines.  Specifically, we identified questioned costs totaling $323,859 for cases that were:  (1) submitted in the wrong disposition  category, (2) submitted in the wrong quarter, (3) not in violation of a  federal criminal law, (4) submitted twice or processed concurrently, and (5) claimed  under the both prosecution and pre-trial detention category that did not meet  the requirements for pre-trial detention.  In addition we identified $17,500 in funds to better use for cases that  were submitted in the wrong disposition category or were not in violation of a  federal criminal law.1
These issues are discussed in detail in the Findings  and Recommendations section of the report.  Our audit Objectives, Scope, and Methodology appear in Appendix I.


 

Footnotes

The Inspector General Act of 1978, as amended,  contains our reporting requirements for questioned costs.  However,  not all findings are dollar-related.  See Appendix II for a breakdown of our  dollar-related findings and for definitions of questioned costs and funds to  better use.





 




Return to OIG Home Page